IMPROPER ALLOTMENT OF RECOVERY ACT 

          APPORTIONMENTS 


            Report Number: ROM 11-01 

           Date Issued: December 15,2010 





                 Prepared by the
           Office of Inspector General
       U.S. Small Business Administration
             u.s. Small Business Administration    Memorandum
             Office Inspector General


    To: 	    Jon L Carver 
                                          Date:   December 15,2010
             Chief Financial Officer 

             lsi Original Signed 

  From: 	    Peter McClintock 

             Deputy Inspector General 


Subject: 	   Improper Allotment of Recovery Act Apportionments
             Report No. ROM 11-01

             Attached is the Management Letter issued by KPMG LLP which identifies a
             matter that came to their attention during the audit ofSBA's FY 2010 financial
             statements. The objective was to assess the adequacy of oversight and
             monitoring over the Agency's Recovery Act budgetary resources.
             KPMG addressed one recommendation to you. We provided a draft of
             KPMG's report to you and you concurred with the finding. You also agreed to
             implement the recommendations or have already taken action to address the
             underlying conditions.

             Should you or your staff have any questions, please contact Jeffrey R. Brindle,
             Director. Infonnation Technology and Financial Management Group at (202)
             205- [ForA ex. 2]
                              KPMG LLP
                              2001 M Street, NW
                              Washington , DC 20036-3389




                     AMERICAN RECOVERY AND REINVESTMENT ACT 

                               MANAGEMENT LETTER 




December 15, 2010


CONFIDENTIAL

Office of the Inspector General,
U.S. Small Business Administration, and
Administrator of the SBA:


We were engaged by the Office ofInspector General (OIG) to perform supplemental audit services for the
purpose of testing certain transactions and system enhancements related to the U.S. Small Business
Administration's (SBA) implementation of the American Recovery and Reinvestment Act of 2009
(ARRA). The procedures were performed as part of an expanded scope of our fiscal year 2010 audit of
SBA's consolidated financial statements. In planning and performing our audit procedures related to
SBA's implementation of ARRA, we considered internal control related to the implementation and
operation of the ARRA programs that were in place as of September 30, 2010.

During our audit, we noted a matter involving internal control concerning improper allotment of ARRA
apportionments. The comments and resulting recommendations, presented in the Exhibit, have been
discussed with the appropriate members of management and are intended to improve internal control or
result in other operating efficiencies.

We would be pleased to discuss these comments and resulting recommendations with you at any time.

This report is intended solely for the information and use of the OIG, SBA management, and others
within the organization and is not intended to be, and should not be, used by anyone other than these
specified parties.




                                  KPMG LLP is a Delaware lim ited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  ("KP MG International"), a Swiss entity.
                                                                                                  Exhibit
                           U.S. SMALL BUSINESS ADMINISTRATION 

                              American Recovery and Reinvestment Act 

                                  Management Letter Comments 

                                            FY 2010 



IMPROPER ALLOTMENT OF AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009
APPORTIONMENTS

Condition:

During our testwork over American Recovery and Reinvestment Act of 2009 (ARRA) allotments made
between October 1, 2009 and May 31 , 2010, we noted nine instances where allotment adjustments
resulted in the unobligated funds available balance exceeding the available apportionment. At the time
these entries were made, SBA utilized two separate systems to allot funds: the Funds Control
Management System (FCMS) used by staff in the Office of Capital Access (OCA) and the Loan
Accounting Allotment System (LAA) used by staff in the Office of the Chief Financial Officer (OCFO).
We also noted that although the unobligated funds available balance exceeded the apportionment, SBA
did not obligate more than that which was apportioned.

After we identified this issue, we selected all remaining items in the population and found no additional
exceptions in allotment entries made between October 1, 2009 and May 31 , 2010.

Criteria:

Anti-Deficiency Act: 31 USC Sec. 1517. Prohibited obligations and expenditures:
        (a) An officer or employee 	of the United States Government or of the District of Columbia
            government may not make or authorize an expenditure or obligation exceeding ­
                (1) 	 an apportionment

Federal Managers ' Financial Integrity Act of 1982 (FMFIA)
        (d)(1)(A) To ensure compliance with the requirements of subsection (a)(3) ofthis section, internal
            accounting and administrative controls of each executive agency shall be established in
            accordance with standards prescribed by the Comptroller General, and shall provide
            reasonable assurances that ­
                (i) obligations and costs are in compliance with applicable law

Office of Management and Budget (OMB) Circular A-II , Preparation, Submission and Execution of the
Budget

        150.2 What is the purpose of my agency's fund control system?
             The purpose of your agency's fund control system is to:
             Restrict both obligations and expenditures (also known as outlays or disbursements) from
             each appropriation or fund account to the lower of the amount apportioned by OMB or the
             amount available for obligation or expenditure in the appropriation or fund account.
                                                                                                 Exhibit
                            U.S. SMALL BUSINESS ADMINISTRATION
                               American Recovery and Reinvestment Act 

                                   Management Letter Comments 

                                             FY 2010 



          150.4 What is the relationship between my agency's financial management system and its fund
          control system?
                 Your agency'sfinancial management system must support the preparation and execution
                 of your agency's budget, among other things. Your agency's fund control system is part
                 of your agency's budget execution process. Therefore, your agency's fmancial
                 management system must support your agency' s fund control system.

Cause:

There is a lack of internal control and delegated authority over fiscal responsibility, inadequate access
controls for FCMS and LAA, a lack of communication between the OCFO and OCA, and insufficient
oversight and monitoring over the agency's ARRA budgetary process to ensure unobligated funds
available do not exceed apportionments.

SBA implemented a new Funds Control System on June 26, 2010, which now serves as the sole system
used to fund SBA programs and activities. This system replaces FCMS and LAA as the allotment entry
vehicle, and access rights are limited to the OCFO office only.

Effect:

Between February 19, 2010 and April 29, 2010, SBA encountered periods where its unobligated funds
available for ARRA loan programs exceeded the authorized apportionment by an aggregate $2.7 billion,
which could have resulted in and increased the risk of an Anti-Deficiency Act violation. Although SBA
management represented to us that they electronically "turned off' the apportionments in question in the
FCMS (thus preventing obligations from occurring and mitigating this risk), we were unable to obtain
evidence to support this representation.

Recommendation:

We recommend the Chief Financial Officer:

          1. 	 Ensure the newly implemented FCMS has adequate system controls in place to prevent
               allotments from exceeding apportioned amounts.


Management's Response:


SBA management concurs with the fmdings and recommendation.




                                                                                                       2
